IN THE
SUPREME COURT OF THE UNITED STATES

ANTHONY THOMAS BUONAIUTO, III,
(Petitioner)

VS.

THE STATE OF PENNSYLVANIA
(COMMONWEALTH)
(Respondent)

ON PETITION FOR WRIT OF CERTIORARI
TO THE SUPREME COURT OF PENNSYLVANIA

PETITION FOR WRIT OF CERTIORARI
\
\
\

Dated-

Respectfully Submitted. [A
WutAlyi
Anthony iVBuonaiuto
Pa D.O.C # LT-8967
S.C.I Waymart
Pro-se Petitioner

/) 1

1.

QUESTIONS PRESENTED FOR REVIEW

Petitioner, has been incarcerated since 2014. Petitioner is serving
a Sentence for a Violation of the Registration Requirements of the
Pennsylvania Sexual Offender Registration and Notification Act, also
known as (S.O.R.N.A) 42.Pa.Cs.9799.10-9799.41, (Subchapter H).

Whether, Federal Law Renders the Supreme Court of
Pennsylvania in Legal Error, where the Supreme Court of Pennsylvania
Committed Legal Error by failing to grant review to adjudge the
Substantive Nature and Retroactive Applicability of it’s holding in
Commonwealth vs. Muniz; 164 A.3d 1189 Pa. 2017—(Cert Denied
Pennsylvania vs. Muniz; 925 S.Ct (2018), for the purposes of adopting
the language set forth by the Supreme Court of the United States in
Montgomery vs. Louisiana; 136 S.Ct 718; 193 L. Ed. 2d 599 (2016),
regarding Substantive Rules of Constitutional Law and the Retroactive
Effect they have in a Criminal Proceeding, to allow the Petitioner’s
Untimely P.C.R.A succeed as a Timely Petition pursuant to the
Jurisdictional Timeliness Exceptions to the Pennsylvania PostConviction Relief Act Time-Bar Exception set forth at
42.Pa.Cs.9545(B)(l)(iii) & (2)?

11.

PARTIES OF THE PROCEEDING
The parties to the proceeding areAnthony Thomas Buoniauto, an individual
incarcerated in the Commonwealth of Pennsylvania.
Commonwealth of Pennsylvania, through the Wayne
County Pennsylvania, District Attorney’s Office.

m.
TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW
PARTIES OF THE PROCEEDING..............
OPINIONS BELOW.......................................
JURISDICTION
RELEVANT CONSTITUTIONAL PROVISIONS
STATEMENT OF CASE
ARGUMENT.
I. Muniz, Creates a New Substantive Rule of Constitutional Law,
that is Retroactively Applicable to a Final Conviction under both State
and Federal Law, thus the Pennsylvania Supreme Court is in Error for
Failing to Recognize the Substantive Nature and Retroactive
Applicability of it’s holding in Muniz, for the purposes of granting the
petitioner State Collateral Relief from his Conviction and Sentence for
Pennsylvania Consolidated Statue
18.Pa.Cs.4915.l(A)(l)&(2)...........................................................................
CONCLUSION

APPENDIX
COURT OF COMMON PLEAS OF WAYNE COUNTY
RULING

App 1.

SUPERIOR COURT OF PENNSYLVANIA RULING

App 2.

SUPREME COURT OF PENNSYLVANIA RULING

App 3.

1.
OPINIONS BELOW
The Superior Court’s ruling denying the Petitioner Collateral
Relief, is attached as Appendix 1., The Order of the Supreme Court of
Pennsylvania Denying Review of the Petitioner’s State Post-Conviction
Collateral Claims, is attached as Appendix 2.

JURISDICTION
The Supreme Court of Pennsylvania denied the petitioner Review
of his State Post-Conviction Collateral Claims on April 28th 2020. The
Honorable Court has Jurisdiction pursuant to 28.U.S.C 1257(a).

RELEVANT CONSTITUTIONAL PROVISIONS
The Fourteenth Amendment to the United States Constitution
provides, in pertinent part- “ No State shall... deprive any person of
life, liberty, or property, without due-process of law; nor deny to any
person within its jurisdiction the equal protections of law”.

Article 1 Section 10, of the United States Constitution provides, in
pertinent part- “ No State shall enter into any Treaty, Alliance or
Confederation; grant Letters of Marque and Reprisal; coin Money; emit
Bills of Credit; make any thing but gold or silver coin a tender in
payment of debts; pass any bill of attainer, Ex-Post Facto Law, or
impairing the obligation of Contracts, or grant any title of nobility.

STATEMENT OF CASE
In August 2003, petitioner was convicted of a Sexual Offense in
the State of Florida, thus triggering the application of a (10) Ten Year
Sexual Offender Registration Requirement and Applicability in that
State.
In 2012, the petitioner was notified by the Pennsylvania State
Police upon his moving that he was now required to Register as a
Sexual Offender for the remainder of his (Life) pursuant to the
Subsequently Enacted Pennsylvania Sexual Offender Registration and
Notification Act (S.O.R.N.A) See: Pennsylvania Consolidated Statue
42.Pa.Cs.9799.10-9799.41, (Subchapter H).
In 2014, the Petitioner, failed to Register and Verify his Address
and or Photograph as required under Pennsylvania (S.O.R.N.A).
Petitioner, was Subsequently Arrested by the Pennsylvania State Police
and charged with a Violation of Pennsylvania S.O.R.N.A pursuant to
Pennsylvania Consolidated Statue 18.Pa.Cs.4915.1
Subsequently, thereafter the petitioner entered into a Plea of
guilty and was Sentenced to a term of Confinement in the Pennsylvania
Department of Corrections.
On the 19th day of July 2017, the Pennsylvania Supreme Court
decided the case of Commonwealth vs. Muniz; 164 A.3d 1189 Pa. 2017

which held that the Registration Provisions of the subsequently enacted
Sorna were Punitive and therefore Retroactive Application of those
Requirements to a person who committed there Sexual Offense prior to
Sorna’s Enactment date of December 20th of 2012, violated the Sate and
Federal Ex-Post Facto Clause.
Subsequently, thereafter the petition sought State Collateral
Review of his Conviction and Sentence as Violating both the State and
Federal Constitution and that based on Muniz, his Conviction was Noll
and Void and therefore he was entitled to Post-Conviction Relief.
The Lower Court, denied relief, the petitioner, appealed to the
Superior Court of Pennsylvania, where as the intermediate court
affirmed the order of the lower court.
The petitioner than appealed to the Supreme Court of
Pennsylvania, and on the 28th day of April 2020, with-out review or
Opinion the Pennsylvania Supreme Court denied the petitioner’s
request for review.

ARGUMENT

(A)- The Pennsylvania Supreme Court Committed Legal Error in
failing to Adopt the language set forth in Montgomery and Teague, as
set forth by United States Supreme Court in regards to Substantive
Rules of Constitutional Law, and the Retroactive Effect those Rules
have in a Post-Conviction Collateral Relief Proceeding, for the purposes
of applying the Substantive Nature and Retroactive Effect to the
petitioner’s Post-Conviction Relief Act Petition, based on the Holding by
that Court in Commonwealth vs. Muniz; 164 A.3d 1189 Pa. 2017, in
order to find the petitioner’s Conviction and Judgment of Sentence
illegal and Unconstitutional.

In the Commonwealth of Pennsylvania, All P.C.R.A Petition’s
must be filed with'in (l) One year of the date the petitioner’s Judgment
of Sentence becomes final. See- 42.Pa.Cs.9545(B). However, this statue
does provide exception’s to that General Rule as long as the Petition
Pleads and the Petitioner can Prove one of the (3) Exceptions set forth
with-in the Pennsylvania Post-Conviction Relief Act Statue
42.Pa.Cs.9545(B)(l)(i)(ii)&(iii).

Section 9545 Reads as Follows^

(i)- Interference by Government Officials with the Presentation of
the claim in Violation of the Constitution of this Commonwealth or the
Constitution or Laws of the United States

(ii)- The Facts Upon which the Claim is Predicated could not have
been Ascertained by the Exercise of Due-Dilligence; or

(iii)- The Right Asserted was a Constitutional Right Recognized by
the Supreme Court of the United States or the Supreme Court of
Pennsylvania, after the time period provided in this Section and has
been (Held) to apply Retroactively.

Additionally, any claim to any of the (3) Three above Exceptions
must be raised with-in (60) Sixty Days of the date the claim could have
been presented.

The Language with-in the Exceptions’ disregards the Retroactive
Effect Substantive Rules of Constitutional Law have in a Collateral
Review Proceeding, thus making this Statue Unconstitutional.

Petitioner, avers in 2016, this Honorable Court in Montgomery vs.
Louisiana; 136 S.Ct 718; 193 L. Ed 2d 599 (2016), provided a framework
for Retroactivity in State Collateral Review proceeding’s. This
Honorable Court Opted the language contained in Teague vs Lane; 489
U.S 288 (1989), by applying that the Teague standard found in a
Federal Collateral Review Proceeding regarding Retroactive Effect of
Substantive Rules of Constitutional Law, that effect the out-come of a
Criminal Proceeding must apply in State Collateral Review
Proceedings.

Generally, new Constitutional rules of criminal procedure do not
retroactively apply to convictions which were final when the new rules
were announced. Montgomery vs Louisiana; 136 S.Ct 718, 193 L. Ed. 2d
(2016). Procedural rules regulate the manner of determining the
defendants culpability and are designed to enhance the accuracy of a
conviction or sentence.

In contrast, newly announced substantive rules are an exception
to the retroactivity bar and include rules, which forbid criminal
punishment of certain primary conduct or prohibit a certain category of
punishment for a class of defendants because of there status or offense.
Commonwealth vs. Secreti; 134 A.3d 77, 81 (Pa. Super 2016)—(Quoting
Montgomery Supra, “When a State Enforces a Constitutionally Barred
Penalty, the resulting conviction or sentence is unlawful. (Montgomery

Supra. The United States Constitution requires State Collateral
Review Courts to give Retroactive Effect to New Substantive Rules of
Constitutional Law, which control the outcome of a criminal proceeding.

Instantly, the recent holding in Commonwealth vs. Muinzl 164
A.3d 1189 Pa. 2017---(Cert Denied Pennsylvania vs. Muniz; 925 S.Ct
(2018)-(Decided January 22nd 2018), created a new substantive rule of
constitutional law that applies Retroactively in the State Collateral
Context based of the Due process Clause of the United States
Constitution because S.O.R.N.A, punishes a Class Defendant’s due to
there Status as Sexual Offenders, and creates a significant risk of
punishment that the law cannot impose.

The predicate legal challenge for Cert review is based on the
Failure to Comply with an Unconstitutional Law, and then later being
Punished for not Complying with the Unconstitutional Law. Section
18.Pa.Cs.4915.1 is the Criminal Statute that is use in Pennsylvania to
Prosecute an Offender for fading to comply with S.O.R.N.A Subchapter
(H), the same law that the Pennsylvania Supreme Court found to be
Unconstitutional to Offender’s like the petitioner, as such application
Violated the State and Federal Ex-Post Facto Clause, thus petitioner
avers he should have never been Convicted for a violation of Section
4915.1, and that the petitioner’s Conviction and Sentence is Void and
the petitioner should be discharged, Thus the Petitioner, avers in this

CONCLUSION

Petitioner, based on the forgoing set forth above, requests this
Honorable Court Grant a Writ of Certiorari to review the Judgment of
the Supreme Court of Pennsylvania.

Respectfully Submitted,

Dated: July 23rd 2020

Anthony ^Suonaiuto (LT-8967)
S.C.I Waymart
11 Fairview Drive
Waymart Pa, 18472

